CERTIFICATE OF SERVICE

NO. 15-
VAGAN ADZHEMYAN,
Petitioner,
v.
UNITED STATES,
Respondent.

I, the undersigned, declare under penalty of perjury that I am over the age of
18 years and not a party to the above-entitled action; that I served the attached
Petition for a Petition for Writ of Certiorari and Motion for Leave to Proceed
Jn Forma Pauperisin the following manner:

* By placing a copy in a separate envelope, with postage fully prepaid, for each
addressee named below and depositing each in the U.S. Mail at San Diego,
California on July 9, 2020.

Solicitor General of the United States Vagan Adzhemyan
Room 5616 Reg. #: 33879-112
Department of Justice USP Thomson

950 Pennsylvania Avenue, N.W. U.S. Penitentiary
Washington, D.C. 20530-0001 P.O. Box 1002

Thomson, Illinois 61285

Executed on Thursday July 9, 2020, at San Diego, California.

ae

Knut S. Johnson, Esq.

The Law Offices of Knut Johnson
550 West C Street, Suite 620
San Diego, CA, 92101

(619) 232-7080
knut@knutjohnson.com

 
 

 

 
